OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/WEST BANK
AND GAZA’S DESIGN FOR
SUSTAINABILITY FOR
SELECTED LOCAL
GOVERNMENT AND
INFRASTRUCTURE PROGRAM
ACTIVITIES
AUDIT REPORT NO. 6-294-13-005-P
JANUARY 27, 2013


CAIRO, EGYPT
Office of Inspector General


January 27, 2013

MEMORANDUM

TO:                  USAID/West Bank and Gaza Director, Michael T. Harvey

FROM:                Regional Inspector General, Catherine Trujillo /s/

SUBJECT              Audit of USAID/West Bank and Gaza’s Design for Sustainability for Selected
                     Local Government and Infrastructure Program Activities
                     (Report No. 6-294-13-005-P)

This memorandum transmits our final report on the subject audit. We have considered carefully
your comments on the draft report and have included them in their entirety in Appendix II.

The final report includes five recommendations to help strengthen the implementation of
USAID/West Bank and Gaza’s Design for Sustainability for Selected Local Government and
Infrastructure Program Activities. The mission has made management decisions on the
five recommendations. Please provide the Audit Performance and Compliance Division in the
USAID Office of the Chief Financial Officer with the necessary documentation to achieve final
action.

I want to express my sincere appreciation for the cooperation and courtesy extended to my staff
during the audit.




U.S. Agency for International Development
USAID Office Building
1/A Nady El-Etisalat Street
Off El-Laselki Street
New Maadi
Cairo, Egypt
http://oig.usaid.gov
CONTENTS 

Summary of Results ................................................................................................................... 1 


Audit Findings............................................................................................................................. 3 


     Mission Did Not Assess Beneficiaries’ Capacity to Sustain Projects ...................................... 3 


     Mission Did Not Always Follow Environmental Procedures .................................................... 5 


     Subcontracts Did Not Include Mandatory Human Trafficking Provision .................................. 7 


Evaluation of Management Comments................................................................................... 10 


Appendix I—Scope and Methodology .................................................................................... 11 


Appendix II—Management Comments ................................................................................... 13 





Abbreviations

The following abbreviations appear in this report:

ADS             Automated Directives System
AOR             agreement officer’s representative
CFR             Code of Federal Regulations
CHF             Cooperative Housing Foundation International
COP             chief of party
MoEHE           Ministry of Education and Higher Education
MOU             memorandum of understanding
O&M             operations, sustainability, and maintenance plan
RIG             Regional Inspector General
SUMMARY OF RESULTS 

According to the Palestinian Authority’s 2011-2013 national development plan, the national
agenda includes developing and improving the private sector, educational systems, and national
and basic infrastructure. The Palestinian Authority anticipates that these improvements would
have a positive impact on citizens’ quality of life as well as on the prospects for growth within the
private sector. In keeping with this plan, the Ministry of Local Government established a 5-year
strategic framework that focuses on being “able to achieve sustainable development with
effective community participation.”

To help the ministry implement that framework, USAID/West Bank and Gaza awarded
Cooperative Housing Foundation International (CHF)1 a 5-year cooperative agreement on
September 30, 2010, worth $100 million to implement the Local Government and Infrastructure
Program. The goal is to encourage good local governance and provide basic infrastructure
necessary to improve the quality of life for Palestinians in West Bank and Gaza. As of
September 30, 2012, the mission obligated $37 million and expended $17 million under this
program.

CHF developed six objectives to achieve the program’s goal:

1. 	Improve living conditions for Palestinians by providing sustainable multisector community
    infrastructure, such as schools, roads, and sidewalks.

2. 	 Enhance the impact of other USAID programs by addressing their underlying infrastructure
     needs.

3. 	 Strengthen local government’s capacity to respond effectively and efficiently to community
     needs by promoting and institutionalizing good democratic governance practices.

4. 	Enhance the Ministry of Local Government’s capacity to assume its regulatory, policy
    development, sector strategic planning, guidance, and monitoring roles.

5. 	 Generate employment opportunities and build the capacity of the Palestinian construction
     sector through building infrastructure projects.

6. 	 Reserve 5 percent of program funds to address unforeseeable opportunities that could help
     achieve the program’s overall goal.

The Regional Inspector General (RIG)/Cairo conducted this audit to determine whether
USAID/West Bank and Gaza incorporated sustainability in selected program activities. While
the mission incorporated sustainability in some activities, it should address the following
concerns to be sure that all projects are sustainable.

	 USAID/West Bank and Gaza did not perform an assessment of beneficiaries’ capacity to
   sustain projects (page 3). Although the mission anticipated providing about $15 million to a
   single ministry, it did not assess whether the ministry had the staff and financial resources


1
    The organization changed its name to Global Communities in 2012.


                                                                                                   1
   required to sustain any projects. In addition, the mission should assess the capacity of the
   Palestinian Authority’s local government units receiving assistance.

	 The mission did not always follow environmental procedures (page 5). While the mission
   conducted an initial environmental examination, it did not verify that all project environmental
   screening forms were completed and approved before construction.

	 Subcontracts did not include the mandatory human trafficking provision (page 7). The
   implementer awarded 18 subcontracts to construct and renovate schools, roads, walls, and
   sidewalks; however, the implementer did not include the provision in those subcontracts.

To address these concerns, RIG/Cairo recommends that USAID/West Bank and Gaza
implement the following recommendations.

1. 	 Perform and document an assessment of the Palestinian Authority’s Ministry of Education
     and Higher Education’s capacity to sustain infrastructure projects constructed or renovated
     under the Local Government and Infrastructure Program. It should then review the total
     amount of completed and planned assistance provided to other ministries and determine
     whether additional assessments need to be performed (page 5).

2. 	Revise the Local Government and Infrastructure Program’s sustainability framework to
    require beneficiaries to provide written cost estimates of what they need to operate and
    sustain projects, and direct Cooperative Housing Foundation International to assess the
    viability of the estimates to sustain the project before construction starts (page 5).

3. 	Implement written procedures for completing environmental screening forms for projects
    within politically sensitive areas under the Local Government and Infrastructure Program to
    mitigate the environmental impact of construction (page 7).

4. 	Obtain a written legal decision from its regional legal advisor on how to proceed with
    three projects that are either completed or under way for which staff members did not finish
    environmental screening forms before construction began (page 7).

5. 	 Modify the Local Government and Infrastructure Program’s cooperative agreement to add
     Automated Directives System’s revised human trafficking provision and direct Cooperative
     Housing Foundation International to amend its ongoing subcontracts to include the provision
     (page 9).

Detailed findings appear in the following section, and the scope and methodology appear in
Appendix I. Management comments are in Appendix II, and our evaluation of them is on
page 10.




                                                                                                 2
AUDIT FINDINGS 

Mission Did Not Assess
Beneficiaries’ Capacity to Sustain
Projects
USAID’s Automated Directives System (ADS) 201.3.4.2, “Role of Partners, Customers, and
Stakeholders,” states that while developing a long-term assistance strategy, USAID should work
closely with host-country counterparts that play a role in implementing development plans to
help ensure that those plans address problems, are achievable, and produce sustainable
benefits after USAID funding ends.2 In January 2012 the Agency revised ADS 200.3.1.5, “Build
in Sustainability from the Start,” to require missions to ensure local demand and ownership,
build stakeholders’ capacity to maintain projects, analyze and evaluate activities, bind them to
sustainable financial models, and make sure that they are environmentally sustainable.

According to the cooperative agreement, the sustainability framework required the beneficiaries
or local government units3 to demonstrate that resources were available from relevant
institutions to perform regular maintenance and repairs, and to operate the infrastructure, like
the school in the photo below, to serve its primary purpose. To confirm that beneficiaries have
the capacity to sustain projects, the mission was supposed to assess their staffing and financial
resources.




     USAID funds helped pay for the construction of this new school in the Palestinian
     village of al Mughayyir. (Photo from CHF)


2
  Effective 9/1/08. USAID revised the cited version ADS 201 in March 2012, which was in effect when the

mission made this award. 

3
  Local government units are municipalities, village councils, and joint village councils within the 

Palestinian Authority. 



                                                                                                    3
As part of the program’s design, USAID/West Bank and Gaza incorporated several components
of sustainability, such as proactive involvement of communities and government entities to
identify and prioritize projects based on need, and commitment from the beneficiaries to operate
and maintain the projects. However, the audit identified two areas of concern, described below.

Ministry That Received Significant Aid Was Not Assessed.                     Under the program,
USAID/West Bank and Gaza constructed and renovated several schools for the Palestinian
Authority’s Ministry of Education and Higher Education (MoEHE) but did not assess whether it
had the staff and financial resources to sustain the projects after completion. In November 2010
MoEHE and CHF signed a memorandum of understanding (MOU) detailing specific projects
with a cumulative total of $15 million and making the ministry responsible for project
sustainability (included operating and maintaining the facilities). As of June 30, 2012,
USAID/West Bank and Gaza completed or was in the process of completing 11 school projects
with estimated construction costs of $3.3 million. All were included in the MOU, and the
program’s chief of party (COP) confirmed that the ministry was responsible for operating and
maintaining these facilities.

Capacity of Local Government Units Needs Further Assessment. The mission did not
direct CHF to assess the resources that local government units needed to operate and maintain
the projects. The units signed MOUs with CHF documenting their responsibilities for ensuring a
facility’s sustainability. The MOUs included requirements for implementing an operations,
sustainability, and maintenance plan (O&M), as well as a budget forecast. However, the MOUs
did not consistently include much detail or budgets showing the number of employees and
financial resources needed to operate and maintain the projects. For example, an MOU for a
road and sidewalk expansion project did not have an O&M, let alone include or consider the
additional resources needed to operate and maintain the project. Six MOUs for road projects
did not include estimated budgets for the staff needed to maintain and repair roads. An MOU
for a youth club did not include a cost estimate for maintaining the facility.

The mission did not assess MoEHE’s capacity to sustain projects during the program design
phase because mission officials said they were not sure about the size or amount of assistance
that would be provided to a single beneficiary. They decided to assess the ability of a
beneficiary to maintain and utilize a project only when the costs of that project exceeded $1
million, pursuant to Section 611(e) of the Foreign Assistance Act of 1961, as amended.4

However, shortly after the program was awarded, MoEHE and CHF signed the MOU identifying
a cumulative total of $15 million of assistance to the ministry—exceeding the $1 million
threshold. Given the significant amount of assistance directed to a single ministry, the mission
should have assessed MoEHE’s capacity before construction began. Moreover, USAID’s
General Council determined that when the aggregate value of facilities is managed by the same
entity, the intent of the act is for the mission to complete the certification before the award or
construction activities.

In terms of the local government units, mission officials gave several reasons for not conducting
the assessments. The COP said assessing staffing resources could be problematic because
the staff at several local governments consisted mostly of volunteers. Additionally, large local

4
 According to 22 U.S.C.2361 (e), whenever certain types of funds are proposed to be used for a capital
assistance project that costs more than $1 million, the agency head must take into consideration the
mission director’s certification that the country is capable of effectively maintaining and utilizing the
project.


                                                                                                       4
government units were more likely to provide detailed O&Ms than smaller ones; for example,
Tulkarem, a city with about 50,000 residents, had enough employees and funds to maintain the
project.

Lastly, according to the COP and agreement officer’s representative (AOR), the mission’s
premise for sustainability was not the staff and financial capacity of the beneficiaries. Instead,
the mission focused on (1) making sure that communities participated in the program activities,
(2) the projects selected would be embraced and supported by beneficiaries, (3) they would be
involved in all stages, (4) provide matching contributions, and (5) remain committed to the
projects.

According to the program description, the Palestinian Authority “has struggled to allocate
sufficient resources to fully support the maintenance of existing infrastructure.” Furthermore,
the mission has been building, repairing, and renovating basic infrastructures for the Palestinian
Authority since 2000 to help it form a viable state.

Therefore, it is critical for USAID/West Bank and Gaza to consider the resources of ministries
and local government units receiving benefits under the program. In fact, the mission should
consider other ministries receiving assistance under the program as this audit sample only
reviewed MoEHE projects. Finally, O&Ms with budgets that include the number of staff
members and the amount of money needed to operate and maintain the projects should give
the Palestinian Authority a basis for asking for additional donor funding or to allocate existing
donor funding more effectively. Therefore, RIG/Cairo makes the following recommendations.

   Recommendation 1. We recommend that USAID/West Bank and Gaza (1) perform
   and document an assessment of the Palestinian Authority’s Ministry of Education and
   Higher Education’s capacity to sustain infrastructure projects constructed or renovated
   under the Local Government and Infrastructure Program, and (2) review the total amount
   of completed and planned assistance provided to other ministries and determine in
   writing whether additional assessments need to be performed.

   Recommendation 2. We recommend that USAID/West Bank and Gaza (1) revise the
   Local Government and Infrastructure Program’s sustainability framework to require
   beneficiaries to provide written cost estimates of what is needed to operate and sustain
   projects, and (2) direct Cooperative Housing Foundation International to assess the
   viability of the cost estimates to sustain the project before construction starts and
   document the results.

Mission Did Not Always Follow
Environmental Procedures
Pursuant to 22 Code of Federal Regulations (CFR) 216, USAID/West Bank and Gaza prepared
and approved an initial environmental examination on May 24, 2010. The examination
determined that proposed activities would not have a significant effect on the environment as
defined under CFR 216.1(c)(11) if appropriate mitigation and monitoring measures were
followed. This required the implementer to perform an environmental screening process for
each activity and develop appropriate measures to mitigate any possible adverse impacts
during the construction or the operation stages.

CHF was required to submit an environmental screening form to USAID/West Bank and Gaza



                                                                                                5
disclosing information such as potential environmental impact, mitigation actions, and
monitoring mechanisms. The mission was then required to approve the form, along with any
mitigating control measures developed to address negative environmental impacts before any
construction began.

USAID/West Bank and Gaza did not follow these procedures for three projects. First, the
mission started a three-phase road project during September and October 2011. Yet it did not
approve the environmental screening until November 2011 after construction started.
Furthermore, the screening form CHF submitted included photos of mitigating measures already
implemented rather than a plan discussing the measures to be implemented. For example, the
form included pictures showing that trees had been replanted because they were affected by
construction.

Second, CHF did not submit the environmental form for the Daher Al Abed School project,
shown below, until the mission asked for it during construction (the actual date CHF submitted
the form is unknown). Moreover, on October 5, 2011, CHF allowed a subcontractor to proceed
with construction 4 days before the mitigation implementation plan was completed.




       Workers construct Daher Al Abed School as part of a USAID-funded project. (Photo
       from CHF)

Third, the mission did not approve an environmental screening form for the Salah al Deen
School project until January 25, 2012, 3 days after CHF told the subcontractor to proceed with
construction. According to the COP, CHF briefed the subcontractor on the environmental
mitigation measures and followed up daily during site supervisions to be sure the measures
were implemented.

In the case of the road, the AOR said CHF completed an environmental screening, but the
mission wanted CHF to incorporate certain mitigating control measures before approving the


                                                                                            6
final form. He said the mission and CHF discussed the measures, and he and the mission
environmental officer verbally approved CHF’s request to have the subcontractor start work.
However, the mission could not provide any evidence to show the environmental screening and
mitigating measures were approved before the construction began.

For the Daher Al Abed School, when the AOR discovered that CHF did not submit the screening
form before construction, he implemented a control requiring CHF to submit biweekly project
status reports that included the submission and approval dates for all completed and ongoing
environmental screenings.

Finally, the Salah al Deen School project was complicated by the fact that it was located in Area
C, which is controlled by Israel and occupied by Israelis and Palestinians. Getting the Israeli
Civil Administration to issue work permits in this politically sensitive region can be difficult; for
this project, the U.S. Special Envoy for Middle East Peace and other officials were able to do so.
To show USAID/West Bank and Gaza’s commitment, the mission permitted CHF to initiate work
immediately after obtaining the permit without the approval of the environmental screening.

Although the AOR said the subcontractor only built a fence to secure the area and brought
equipment on site before the environmental screening was approved, these activities constitute
construction work without final approval. The mission has worked on 6 of 20 Area C projects
that the MoEHE has asked for, and it plans to work on additional ones there after further
consulting with the ministry and other donors.

Lack of proper environmental screening and mitigating control measures before project
implementation can lead to adverse impacts on the environment as well as on a project’s
sustainability. Without proper screenings, the mission cannot be sure that environmental
safeguards and mitigation steps are addressed before construction. Therefore, RIG/Cairo
makes the following recommendations.

      Recommendation 3. We recommend that USAID/West Bank and Gaza implement
      written procedures for completing environmental screening forms for projects within
      politically sensitive areas under the Local Government and Infrastructure Program to
      mitigate the environmental impact of construction.

      Recommendation 4. We recommend that USAID/West Bank and Gaza obtain a written
      legal decision from its regional legal advisor on how to proceed with the three projects
      that are either completed or under way for which the staff did not complete
      environmental screening forms before construction began.

Subcontracts Did Not Include
Mandatory Human Trafficking
Provision
According to the human trafficking provision incorporated in the cooperative agreement,
recipients must adhere to Section 106 (g) of the Trafficking Victims Protection Act of 2000, as
amended.5 This section requires any federal department or agency entering into a grant,
contract, or cooperative agreement with a private entity to include a condition that allows the


5
    U.S. Code, Title 22, Section 7104 (g).


                                                                                                   7
agency to terminate the award without penalty if any grantee, subgrantee, contractor, or
subcontractor engages in human trafficking, as defined by the act.

In June 2012 USAID further simplified its ADS human trafficking provision—which is also
required to be included in all contracts, grants and cooperative agreements—to require all aid
recipients to include the provision in all subagreements, including subawards and contracts.
According to USAID/West Bank and Gaza’s agreement officer, the mission planned to modify
the program’s cooperative agreement in November 2012 to include that revised language.

None of the 18 subcontracts awarded to several construction companies included the standard
provision on human trafficking. These contracts were for the construction and renovation of
schools, roads, walls, and sidewalks. Three subcontractors said they were not familiar with the
U.S. Trafficking Victims Protection Act, yet they were aware of what actions constituted
violations of it. All three said they were required to follow the Palestinian Authority labor law that
strictly prohibits activities such as child labor and unpaid labor. In addition, six laborers the
team interviewed said they received benefits, reasonable wages, were never forced to work,
and could terminate their employment at any time.

CHF officials said they did not include the provision because they believed that the provision
applied to subgrantees, not subcontractors; they based their interpretation on the definition of
subaward in 22 CFR 226.2:

       Subaward means an award of financial assistance in the form of money, or
       property in lieu of money, made under an award by a recipient to an eligible
       subrecipient or by a subrecipient to a lower tier subrecipient. The term includes
       financial assistance when provided by any legal agreement, even if the
       agreement is called a contract, but does not include procurement of goods and
       services…

In addition, CHF viewed the hiring of construction subcontractors as a procurement of services
and excluded the subcontracts from the CFR requirement.

RIG/Cairo disagrees with CHF’s interpretation because the human trafficking act is applicable to
CHF and to any financial instruments that it creates to achieve the program’s goal. Moreover,
sectors like construction are vulnerable to human trafficking activities. Therefore, as a good
business practice it is advisable to include the human trafficking provision in all instruments
entered into under the program.

According to USAID’s Countering Trafficking in Persons policy dated February 2012, human
trafficking is a lucrative business that grosses about $32 billion a year through forced labor,
commercial sex exploitation, and debt bondage. In addition, the policy notes that some of the
root causes of it are development challenges such as limited employment opportunities, weak
social safety nets, and ethnic and gender discrimination.

The USAID/West Bank and Gaza program’s target beneficiaries are in communities that face
these challenges, and that increases the program’s exposure to trafficking activities. Without
the provision, the mission cannot terminate an award without penalty if the subcontractors or
their employees engage in human trafficking, procure a commercial sex act, or use forced labor
while carrying out program activities. Consequently, the mission cannot assure taxpayers that
an award would be terminated if tax dollars are found to contribute to human trafficking. To
address this concern, RIG/Cairo makes the following recommendation.


                                                                                                    8
Recommendation 5. We recommend that USAID/West Bank and Gaza (1) modify the
Local Government and Infrastructure program agreement to add the June 2012 USAID’s
Automated Directives System revised human trafficking provision, and (2) direct
Cooperative Housing Foundation International to amend its ongoing subcontracts to
include the revised human trafficking provision.




                                                                                     9
EVALUATION OF MANAGEMENT
COMMENTS
In its response to the draft audit report, USAID/West Bank and Gaza agreed with all
five recommendations.    We acknowledge management decisions on these five
recommendations. Summarized below are the comments and the audit team’s evaluation of
them.

Recommendation 1. Mission officials agreed to review a list of completed and planned
infrastructure projects to determine whether the Palestinian Authority ministries, including
MoEHE, require sustainability assessments. The mission intends to complete the assessments
by April 30, 2013. As a result, we acknowledge that the mission made a management decision
on Recommendation 1.

Recommendation 2. USAID/West Bank and Gaza officials said they plan to revise the
program’s sustainability framework and ask the implementer to obtain and verify from potential
beneficiaries written cost estimates for operating and sustaining projects. The mission’s target
date for final action is January 31, 2013. Accordingly, we acknowledge that the mission made a
management decision on Recommendation 2.

Recommendation 3. Mission officials agreed to implement written procedures by February 15,
2013, to complete environmental screening forms for projects under the Local Government and
Infrastructure Program. As a result, we acknowledge that the mission made a management
decision on Recommendation 3.

Recommendation 4. USAID/West Bank and Gaza officials said the regional legal advisor will
provide a written legal decision by March 31, 2013, regarding the three projects for which the
staff did not complete environmental screening forms before construction began. Consequently,
we acknowledge that the mission made a management decision on Recommendation 4.

Recommendation 5. Mission officials agreed to modify the program agreement by January 31,
2013, to add the revised human trafficking provision and ask the implementer to amend its
ongoing subcontracts to include the revised provision. Accordingly, we acknowledge that the
mission made a management decision on Recommendation 5.




                                                                                             10
                                                                                    Appendix I



SCOPE AND METHODOLOGY
Scope
RIG/Cairo conducted this audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on
our audit objective. We believe the evidence obtained provides that basis.

The audit objective was to determine whether USAID/West Bank and Gaza built sustainability
into selected Local Government and Infrastructure Program activities. USAID/West Bank and
Gaza awarded CHF a $100 million cooperative agreement that was in effect from September
30, 2010, to September 30, 2015. As of September 30, 2012, the mission obligated $37 million
and expended $17 million.

The audit covered infrastructure activities from September 30, 2010, through June 30,
2012. We conducted fieldwork between October 14 and 31, 2012, at USAID/West Bank and
Gaza, CHF’s office in Ramallah, Salahdin Elementary Boys School in Jerusalem Governorate,
Az Zeer Secondary School for Boys in Bethlehem Governorate, Jaba Youth Club in Jerusalem
Governorate, and at the Arab ar Rashayida Road rehabilitation project in Bethlehem
Governorate.

In planning and performing the audit, we obtained an understanding of the program design,
objectives, activities, and management oversight controls of the program. We assessed and
tested relevant management controls related to documentation, management reviews, and
approval of infrastructure activities. Moreover, the audit focused on testing infrastructure
activities to confirm that USAID/West Bank and Gaza implemented sustainable elements for
infrastructures constructed or renovated under the program.

Methodology
To answer the audit objective, we interviewed USAID/West Bank and Gaza officials, CHF
employees, and project beneficiaries.      We also reviewed and assessed documentation
provided by USAID/West Bank and Gaza and CHF that included the mission’s fiscal year
2011 Federal Managers’ Financial Integrity Act assessment, program design documents,
community assessment and involvement reports, construction contracts, MOUs, and other
relevant documents. We reviewed documents to verify the mission’s consideration of gender
equality and trafficking in persons requirements. We observed and interviewed workers to
understand their knowledge of these subject matters. In addition, we reviewed applicable laws
and regulations and USAID policies and procedures that included but were not limited to the
Foreign Assistance Act of 1961, as amended, and ADS Chapters 200 (“Programming Policy”),
201 (“Planning”), and 204 (“Environmental Procedures”).

The program budget allocated about $50 million toward infrastructure activities. As of June 30,
2012, CHF implemented 59 infrastructure projects (54 completed and 5 in progress) with
construction costs of $8.6 million. To assess whether USAID/West Bank and Gaza built and
implemented sustainability elements into the projects, we judgmentally selected 18 of them with
construction costs of $4.5 million or 52 percent of the infrastructure project universe. We


                                                                                            11
                                                                                        Appendix I


reviewed relevant program design documents like the program description and interviewed the
AOR to determine whether the mission incorporated sustainability elements into the program
design. For each project selected, we verified that mission officials and CHF personnel ensured
that (1) the community or government entity identified the project as necessary, (2) project
beneficiaries were committed to operate and maintain projects, and (3) beneficiaries
demonstrated that they had the personnel and financial capabilities to sustain projects.

We verified that CHF monitored and managed construction site activities by reviewing a sample
of raw material testing and approvals and CHF engineers’ approval of work completed. We also
verified that CHF approved completed projects before handing them over to beneficiaries and
that the subcontractors provided beneficiaries with a 1-year warranty against construction
defects. In addition, we visited four sites and met with local government or ministry
representatives and beneficiaries to confirm community involvement, project ownership, and
commitment to operate and maintain projects after completion of construction. RIG/Cairo
selected a judgmental sample for this audit because (1) the universe included several types of
infrastructure projects that required different testing attributes, and (2) the mission’s selection
and approval process was not the same for every project. Therefore, the audit results cannot be
projected across the universe.




                                                                                                12
                                                                                  Appendix II



MANAGEMENT COMMENTS 



UNCLASSIFIED


Date:         January 16, 2013

To:           Regional Inspector General, Cairo, Catherine Trujillo

From:         Mission Director, USAID West Bank and Gaza, Michael T. Harvey /s/

Through:      Acting Deputy Mission Director, Bruce Gelband /s/

Subject:      Mission’s Comments on the Draft Performance Audit Report of the Local
              Government and Infrastructure Program.

              Draft Audit Report No. 6-294-13-0XX-P dated December 20, 2012

Reference:    Thomanek/Harvey memorandum dated December 20, 2012


USAID West Bank and Gaza wishes to thank the Regional Inspector General/Cairo for
conducting the referenced performance audit of the Local Government and Infrastructure
Program (LGI). The subject draft audit report has been thoroughly reviewed by the Water
Resources and Infrastructure Office (WRI) in collaboration with other offices in the Mission.

The Mission appreciates this opportunity to comment on the draft audit report and the five
recommendations therein as the RIG prepares the final report. The following are the Mission’s
comments on each of the five recommendations.

Recommendation No. 1:

We recommend that USAID/West Bank and Gaza (1) perform and document an assessment of the
Palestinian Authority’s Ministry of Education and Higher Education’s capacity to sustain
infrastructure projects constructed or renovated under the Local Government and Infrastructure
Program, and (2) review the total amount of completed and planned assistance provided to other
ministries and determine in writing whether additional assessments need to be performed.




                                                                                           13
                                                                                       Appendix II


Response:

The Mission will review the list of completed and planned infrastructure projects under the Local
Government and Infrastructure Program (LGI) and determine which Palestinian Authority (PA)
ministries, including the Ministry of Education and Higher Education, require sustainability
assessments. By January 31, 2013, the Agreement Officer’s Representative (AOR) will draft a
memorandum to the Regional Legal Advisor (RLA) with a list of ministries that received or
expected to receive substantial assistance requiring such assessments. By April 30, 2013, the
Mission will complete an assessment of the capacity of the ministries identified in January 2013
to maintain and utilize infrastructure projects planned or completed under LGI.

Recommendation No. 2:

We recommend that USAID/West Bank and Gaza (1) revise the Local Government and
Infrastructure Program’s sustainability framework to require beneficiaries to provide written
cost estimates of what is needed to operate and sustain projects, and (2) direct Cooperative
Housing Foundation International to assess the viability of the cost estimates to sustain the
project before construction starts and document the results.

Response:

The LGI program has a rigorous sustainability plan that includes the selection of projects to meet
community needs, assessment of each project's technical feasibility, design of sustainable
projects, monitoring implementation to ensure that projects are completed at required quality
standards, and ensuring that projects are properly utilized and maintained for after the project is
completed. That being said, by January 31, 2013, the Mission will amend the project’s
sustainability framework by requesting that CHF International obtain from potential beneficiaries
written cost estimates for operating and sustaining infrastructure projects to be completed under
the LGI program. CHF International will be requested to confirm beneficiaries’ cost estimates to
sustain infrastructure projects provided under LGI prior to beginning construction.

Recommendation No. 3:

We recommend that USAID/West Bank and Gaza implement written procedures for completing
environmental screening forms for projects within politically sensitive areas under the Local
Government and Infrastructure program to mitigate the environmental impact of construction.

Response:

For projects requiring immediate contractor mobilization to construction sites, the AOR will
provide the implementing partner, CHF International, written instructions cleared by the Mission
Environmental Officer (MEO) delineating the pre-construction actions that should be followed
prior to the approval of the environmental screening form and require that the environmental
screening form be submitted for approval within one week of receiving these written
instructions. By February 15, 2013, the AOR will send CHF International written guidance
clarifying this process.



                                                                                                14
                                                                                       Appendix II



Recommendation No. 4:

We recommend that USAID/West Bank and Gaza obtain a written legal decision from its
regional legal advisor on how to proceed with the three projects that are either completed or
under way for which the staff did not complete environmental screening forms before
construction began.

Response:

The Mission’s RLA will review the Yasid agricultural roads’ projects and Salah al Deen School
project with the LGI AOR to ensure appropriate documentation of conditional verbal approval is
placed in the project activity file (along with any supporting emails). With respect to the Daher
Al Abed School, the RLA will review the controls put in place by the AOR to determine whether
additional guidance needs to be provided to CHF International. The RLA will review the
procedures outlined in Recommendation No. 3 to ensure that in the future, construction does not
proceed prior to approval of the environmental screening form unless clearance from the MEO is
received and appropriate documentation is included in the activity file justifying the necessity of
proceeding. The RLA will provide a written legal decision to the LGI AOR on the cited cases by
March 31, 2013.

Recommendation No. 5:

We recommend that USAID/West Bank and Gaza (1) modify the Local Government and
Infrastructure program agreement to add the June 2012 USAID’s Automated Directives System
revised human trafficking provision, and (2) direct Cooperative Housing Foundation
International to amend its ongoing subcontracts to include the revised human trafficking
provision.

Response:

The subject Cooperative Agreement already includes the provision "Trafficking in Persons dated
October 2010". As of June 2012, the Agency amended this provision and introduced a revised
version for all new awards. While Agency policy does not require Agreement Officers to take
such action, the Agreement Officer will modify the subject cooperative agreement and replace
the existing provision with the June 2012 provision. This modification will be finalized no later
than January 31, 2013. Additionally, in the transmittal letter for this modification, the
Agreement Officer will request CHF International to 1) amend all of their active sub-awards and
contracts to include the updated provision by February 28, 2013 and 2) send the Agreement
Officer a written confirmation once this action is completed.




                                                                                                15
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           http://oig.usaid.gov
